No, 20-1438

 

IN THE
Supreme Court of the GAnited States

 

TINA CATES,

Petitioner,
Vv.
BRUCE D. STROUD; BRIAN WILLIAMS, SR.; JAMES DZURENDA; ARTHUR EMLING, JR.;
Myra LAURIAN,
Respondents.
CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on May 14, 2021, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Petitioner on

counsel for each party to the above proceedings as follows:

James R. Sigel Aaron D. Ford

Morrison & Foerster, LLP Attorney General

425 Market St. D. Randall Gilmer

San Francisco, CA 94105 Chief Deputy Attorney General
JSigel@mofo.com Frank Anthony Toddre, II

(415) 268-6948 Senior Deputy Attorney General

Office of the Nevada Attorney General
555 East Washington Ave., Ste. 3900
Las Vegas, NV 89101
ftoddre@ag.nv.gov

(702) 486-3149

Counsel of Record for Petitioner Counsel of Record for Respondents

Tina Cates Bruce D. Stroud, Brian Williams, Sr.,
James Dzurenda, Arthur Emling, Jr.,
Myra Laurian
 

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 14, 2021.

 

Counsel for Amicus Curiae
